2311 Douglas Street
Omaha, Nebraska 68102-1214

Q@QCKLE

Legal Briefs E-Mail Address:

contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-125
GALE ZAMORE,
Petitioner,
v

DEUTSCHE BANK NATIONAL TRUST COMPANY,
INDIVIDUALLY AND AS TRUSTEE FOR
JP MORGAN MORTGAGE ACQUISITION TRUST
2007-CH5 ASSET BACKED PASS-THROUGH
CERTIFICATES SERIES 2007-CH5,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 7423 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 1 Sth day of November, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE 1.
General Notary . Mitte, x. CLL
State of Nebraska ~ ’,

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38778
